<html>
<title> - UNITED STATES COMMISSION ON INTERNATIONAL RELIGIOUS FREEDOM REAUTHORIZATION ACT OF 2014; CONCERNING THE SUSPENSION OF EXIT PERMIT ISSUANCE BY THE DEMOCRATIC REPUBLIC OF CONGO FOR ADOPTED CONGOLESE CHILDREN; AND THE NEED TO BRING THE SOUTH SUDAN CONFLICT TO A SUSTAINABLE AND LASTING END</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






      UNITED STATES COMMISSION ON INTERNATIONAL RELIGIOUS FREEDOM 
 REAUTHORIZATION ACT OF 2014; CONCERNING THE SUSPENSION OF EXIT PERMIT 
  ISSUANCE BY THE DEMOCRATIC REPUBLIC OF CONGO FOR ADOPTED CONGOLESE 
     CHILDREN; AND THE NEED TO BRING THE SOUTH SUDAN CONFLICT TO A 
                      SUSTAINABLE AND LASTING END

=======================================================================

                                 MARKUP

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                 H.R. 4653, H. Res. 588 and H. Res. 503

                               __________

                             JUNE 18, 2014

                               __________

                           Serial No. 113-181

                               __________

        Printed for the use of the Committee on Foreign Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______

                         U.S. GOVERNMENT PRINTING OFFICE 

88-388PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001















                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
DOUG COLLINS, Georgia                GRACE MENG, New York
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
TED S. YOHO, Florida                 TULSI GABBARD, Hawaii
SEAN DUFFY, Wisconsin                JOAQUIN CASTRO, Texas

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 4653, To reauthorize the United States Commission on 
  International Religious Freedom, and for other purposes........     3
  Amendment in the nature of a substitute to H.R. 4653 offered by 
    the Honorable Christopher H. Smith, a Representative in 
    Congress from the State of New Jersey, and chairman, 
    Subcommittee on Africa, Global Health, Global Human Rights, 
    and International Organizations..............................     7
H. Res. 588, Concerning the suspension of exit permit issuance by 
  the Government of the Democratic Republic of Congo for adopted 
  Congolese children seeking to depart the country with their 
  adoptive parents...............................................    11
  Amendment to H. Res. 588 offered by the Honorable Christopher 
    H. 
    Smith........................................................    15
H. Res. 503, Expressing the sense of the House of Representatives 
  regarding the need to bring the South Sudan conflict to a 
  sustainable and lasting end and to promote reconciliation of 
  longstanding and recent grievances to allow for a peaceful 
  society with good governance...................................    17
  Amendment to H. Res. 503 offered by the Honorable Christopher 
    H. 
    Smith........................................................    24

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE RECORD
                                APPENDIX

Markup notice....................................................    32
Markup minutes...................................................    33
Markup summary...................................................    34
 
      UNITED STATES COMMISSION ON INTERNATIONAL RELIGIOUS FREEDOM 
 REAUTHORIZATION ACT OF 2014; CONCERNING THE SUSPENSION OF EXIT PERMIT 
  ISSUANCE BY THE DEMOCRATIC REPUBLIC OF CONGO FOR ADOPTED CONGOLESE 
     CHILDREN; AND THE NEED TO BRING THE SOUTH SUDAN CONFLICT TO A 
                      SUSTAINABLE AND LASTING END

                              ----------                              


                        WEDNESDAY, JUNE 18, 2014

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 1:30 p.m., in 
room 2200 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. Good afternoon, and I want to thank our 
colleagues for being here for this markup. Pursuant to notice 
we are here this afternoon to mark up three bills: H.R. 4653, 
United States Commission on the International Religious Freedom 
Reauthorization Act of 2014; H. Res. 588, Concerning the 
suspension of exit permit issuance by the Government of the 
Democratic Republic of Congo for adopted Congolese children 
seeking to depart the country with their adoptive parents 
coming to the U.S.; and H. Res. 503, Expressing the sense of 
the House of Representatives regarding the need to bring the 
South Sudan conflict to a sustainable and lasting end and to 
promote reconciliation of longstanding and recent grievances to 
allow for a peaceful society with good governance.
    All three measures enjoy strong bipartisan support that is 
typical of the cooperation that characterizes both the 
subcommittee and our full committee. Congressman Wolf's bill 
which reauthorizes the United States Commission on 
International Religious Freedom has a nearly equal number of 
Democrats and Republican co-sponsors.
    The resolution on DR Congo adoptions is a Democratic 
measure authored by Congressman Collin Peterson of Minnesota, 
and again has strong bipartisan support and I am happy to say 
that the lead co-sponsor of our bipartisan resolution on the 
crisis in South Sudan is my dear friend and colleague, Ranking 
Member Karen Bass, who shares an abiding concern and deep 
concern for the Nation of South Sudan. I want to thank members 
of the subcommittee for their support for these resolutions as 
well, and I do think it will receive full floor consideration.
    The fact that this subcommittee will reconvene following 
this markup for a briefing and hearing as well as scheduling of 
other events including a competing hearing and votes scheduled 
by leadership, it is the intent of the Chair to consider these 
measures en bloc along with substitute amendments sent to you 
yesterday.
    All members do have copies of the documents before them, 
and then after we have concluded our expedited consideration I 
would be glad to recognize any member including myself and the 
ranking member and any of our other members for any statements 
they would like to make.
    All members are given leave to insert written remarks into 
the record should they choose to do so. Seeing that we have a 
reporting quorum, without objection, the following are 
considered as read and will be considered en bloc.
    H.R. 4653, the United States Commission on International 
Religious Freedom Reauthorization Act of 2014, with the Smith 
Amendment to H.R. 4653, again sent to your offices Tuesday; H. 
Res. 588, Concerning the suspension of exit permit issuance by 
the Government of the Democratic Republic of Congo for adopted 
Congolese children seeking to depart the country with their 
adoptive parents, and a substitute amendment offered by myself 
to H. Res. 588; and then H. Res 503, Expressing the sense in 
the House regarding the need to bring the South Sudan conflict 
to a sustainable and lasting end and promote reconciliation of 
longstanding and recent grievances to allow for a peaceful 
society with good governance, and another Smith amendment sent 
to your offices yesterday.
    [The information referred to follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Smith. The Chair moves that the en bloc amendments be 
adopted, and all those in favor say aye.
    All those opposed, no.
    The ayes have it in the opinion of the Chair, and the items 
that are considered en bloc are adopted. Without objection, the 
measures as amended are reported favorably to the full 
committee and the staff is directed to make any technical and 
conforming changes.
    I would like to note that we have completed our formal 
consideration of these measures and I recognize members for 
remarks. And I would like to first recognize myself on behalf 
of the first bill that just passed on to the full committee 
reauthorizing the United States Commission on International 
Religious Freedom.
    In 1998, Congress had the foresight to make the protection 
and promotion of religious liberty a priority in U.S. foreign 
policy by creating an Ambassador-at-Large for International 
Religious Freedom, the Office of International Religious 
Freedom at the Department of State, which authors the 
International Religious Freedom Report on every country in the 
world, and the U.S. Commission on International Religious 
Freedom and their watchdog report which they send to Congress.
    Back in 1997 and 1998 I chaired all of the hearings in the 
House that led to the markup of the legislation authored by 
Chairman Frank Wolf of Virginia. It was at the time a very 
tough sell. There were people against it both in the 
administration as well as in Congress. But at the end of the 
day there was a great coming together and a consensus behind it 
that it was an idea whose time has come, to paraphrase Victor 
Hugo, and it has made a difference over the years in promoting 
religious freedom all over the world.
    Importantly, this landmark legislation, the International 
Religious Freedom Act, created a system for naming and taking 
action against Countries of Particular Concern or CPCs. History 
has shown that when the U.S. makes religious freedom a priority 
and that priority is conveyed to Countries of Particular 
Concern, especially, we have seen conditions change with 
minimal harm to security or economic cooperation.
    As a matter of fact, countless numbers of religious freedom 
advocates who have been persecuted have benefited from this 
legislation and have found freedom or at least a lessening of 
jail sentences and a mitigation of the abuse that they suffer.
    Two and a half years ago after passing with strong 
bipartisan support in the House, a reauthorization bill, it got 
bogged down in the Senate, though eventually the Commission was 
reauthorized, when the legislation was then signed into law by 
the President. This time we hope there will be no such bogging 
down. And obstacles in the Senate, we all know how so many 
bills that are sent there don't get acted on. We think this 
will and believe it will. We have worked with Mr. Wolf's 
office, members of USCIRF, and colleagues from both parties to 
accommodate concerns.
    This subcommittee held a hearing on May 22, where the 
USCIRF commissioner, Dr. Robert George, testified and members 
from religious minority communities, including Muslim, Baha'i, 
and Christian, spoke about the importance of the work of the 
Commission. We understand that this subcommittee's markup 
having been completed, the full committee will mark it up next 
week.
    This subcommittee has also held many-hearings on the 
Republic of South Sudan as part of our overall U.S. 
Government's effort to see this new Nation succeed. From our 
initial hearings and legislation to end the Sudanese practice 
of supporting the enslavement of southerners to the successful 
effort--and I held a hearing on slavery in the Sudan back in 
1996. Chattel slavery, not unlike what we had sadly and 
regrettably in the United States, was still going on in Sudan. 
While we now know that the country emerged, it became 
independent, there now are some very serious problems that 
could derail its march toward democracy.
    Last December, staff director Greg Simpkins and I were 
actually preparing, in wake of the firing of government 
officials, a conflict with the Republic of Sudan over oil 
revenue, and a series of internal problems that threatened the 
security of this Nation, to travel there. Just days before we 
left, as a matter of fact, 2 days before we left, word came of 
the new conflict and that the airport was closed and the 
Embassy said don't come.
    What began as a political dispute among political rivals 
has blossomed into a poisonous clash that has taken on ominous 
ethnic tones that threaten this Nation's future stability. 
Consequently, I introduced H. Res. 503, with my friend and 
colleague, Ms. Bass, to recommend a more comprehensive approach 
to peacemaking in South Sudan. A mere peace treaty cannot 
overcome the problems that have led to this tragic situation.
    The resolution does call for sustainable cessation of 
hostilities and adds our congressional voice to those calls in 
Africa as well as within the country of South Sudan. But it 
goes well beyond the preliminary step to urge a process that 
includes greater transparency; inclusiveness for civil society 
in ensuring good governance; a clear and achievable road map to 
a free and fair election; the disarmament of militias and armed 
groups along with security sector reform; international and 
domestic procedure to ensure that those guilty of human rights 
violations are brought to justice; and continued U.S. 
humanitarian aid and support for capacity building and 
resilience programs to help South Sudan recover from the 
crisis.
    The United States has a significant stake in the long-term 
success of South Sudan, and we must think beyond the end of 
this conflict to creating an environment where peace and 
prosperity can flourish and be sustained.
    Finally, I wish to note the importance of making a strong 
statement in support of the children of the Democratic Republic 
of the Congo. And I know, I have been there and I have seen 
again and again, and Greg and I have been to places like Goma 
and know how many children have been orphaned as a result of 
the horrible conflict that has occurred there and continues.
    This legislation deals with trying to find parents for 
children who may be adopted, and there are hundreds of kids who 
are in the pipeline that are no longer now adoptable because of 
a government change of policy that goes back to last September. 
And I am talking about the DR Congo. Kinshasa did a change of 
the view on this, and this encourages them to rethink that and 
to hopefully allow these children to be adopted here in the 
United States.
    I would like to now yield to Ms. Bass.
    Ms. Bass. Thank you very much, Chairman Smith, always, for 
your leadership. Your hard work on this important bill, H.R. 
4653, I am going to speak just briefly about each of the bills.
    In a time when sectarian violence rages within and between 
various world religions and the repression of religious 
minorities persists, it is important to be supportive of 
national institutions such as the U.S. Commission on 
International Religious Freedom. Whether it is the desecration 
of mosques, churches, or synagogues, or the defamation or 
persecution of adherence to particular religious groups, it is 
critical to have oversight and forward-thinking policy in these 
matters to expand religious freedom.
    In terms of H. Res. 503, I also want to add my voice and 
support regarding the need to bring the South Sudan conflict to 
a sustainable end and to promote the reconciliation of 
longstanding and recent grievances allowing for a peaceful 
society with good governance. It is my hope that this 
legislation will help lay the groundwork to not only bring 
about a peaceful and sustainable resolution to the conflict, 
but also to establish a stable and economically viable South 
Sudan.
    In terms of H. Res. 588, this is another important piece of 
legislation. I am proud to join Representative Peterson as a 
co-sponsor of this resolution, and I have worked with my 
colleagues here in the House and the Senate, in particular my 
colleague, Senator Mary Landreau. In April, the co-chairs of 
the Congressional Coalition on Adoption of which I am one, 
organized nearly 200 Members of Congress to bring concerns 
about the interruption of the adoption process directly to the 
Government of the DRC.
    As we all work to resolve this issue, Congress and 
advocates must continue to engage and communicate with the 
Congolese Government to ensure that all adoptive children are 
united with safe, loving and permanent families. I look forward 
to continuing to work with the Congolese Government to continue 
to improve the intercountry adoption process and the welfare 
and safety of all children globally.
    Mr. Smith. Thank you very much.
    Mr. Cicilline?
    Mr. Cicilline. Mr. Chairman, I want to thank you and the 
ranking member for bringing these three pieces of legislation 
before this subcommittee for markup.
    Mr. Smith. Dr. Bera?
    Mr. Bera. The same thing.
    Mr. Smith. Thank you. Thank you for joining today and for 
supporting these bills and resolutions.
    I would just note, more than parenthetically, we have with 
us today Andrew Natsios who was our Special Envoy to Sudan. Did 
a magnificent job in that position, and from 2001 to 2006 was 
the Administrator for USAID and was absolutely devoted to 
meeting crises worldwide, but had such a special heart and mind 
for the people of Sudan.
    And we in this Congress benefited greatly from his 
leadership and, of course, above all, the people of Sudan. So I 
do thank you. Mr. Natsios is speaking on behalf of the human 
rights in the next venue, but I do want to acknowledge his 
presence during this markup and thank him for his extraordinary 
service.
    This markup is concluded and we will now go to our briefing 
and then hearing, and I thank my colleagues again for their 
support in these bills.
    [Whereupon, at 1:51 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]

</pre></body></html>
